                                                                             Report No. DODIG-2013-122




              I nspec tor Ge ne ral
                                                       Department of Defense

              AUGUST 22, 2013




                     Assessment of the
                     DSE 40mm Grenades




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Assessment of the DSE 40mm Grenades



August 22, 2013                                      Findings Continued

Objective                                            For the M550 fuze, we evaluated the reliability and found that
                                                     the contract specifications and imposed testing ensures its safe
Our assessment focused on the reliability and        operation. DSE Systems manufacturing processes include several
quality control procedures for 40mm grenades         inspection and validation points. These inspection and validation
procured by DoD from DSE, Inc. Specifically,         points reduce the risk of nonconforming material or product being
we assessed the quality management systems           delivered to the customer.
employed by DSE Systems, LLC., a division of
DSE, Inc., for manufacturing the M550 fuze.
                                                     Recommendations
Findings                                             We recommend that:

Our assessment of DSE Systems to the                    1.	 Project Manager, Maneuver Ammunition Systems ensure
ISO 9001:2008 “Quality Management Systems -                 rigorous compliance to ISO 9001 standards at DSE Systems
Requirements” identified 20 individual findings.            and future 40mm grenade contractors and ensure that
                                                            the findings identified within this report and past quality
DSE Systems had the elements of an                          assurance audits are mitigated and resolved.
ISO     9001:2008       Quality    Management
System. However, we identified issues with              2.	 Project Manager, Maneuver Ammunition Systems apply
DSE Systems’ approach to the following quality              the necessary resources, such as technical and quality
assurance processes: control of nonconforming               assurance expertise, to ensure that DSE Systems and future
products, corrective action and preventive                  40mm grenade contractors adhere to the contractually
action, verification of purchased products, and             required Quality Management Systems processes and
production process controls. Upon addressing                implement preventive action process measures that promote
the assessment findings and meeting remaining               product reliability.
contractual requirements imposed in starting
                                                        3.	 Defense Contract Management Agency increase its onsite
a new facility production line, DSE Systems
                                                            performance of inspections and verifications until all the
should continue to be successful. Project
                                                            corrective actions have been implemented.
Manager, Maneuver Ammunition Systems’
proper emphasis on strict adherence of
contractual safety requirements coupled with
DSE Systems pursuit of process improvement
should ensure the continued success of the
M550 fuze.




Visit us on the web at www.dodig.mil


                                                                             DODIG-2013-122 (Project No. D2011-DT0TAD-0001) │ i
                                      Results in Brief
                                      Assessment of the DSE 40mm Grenades




  Management Comments                                                DoD IG Response
  Project Manager, Maneuver Ammunition Systems agreed                The DoD IG acknowledges the closure of DSE, Inc., and
  with the recommendations and findings within the report.           the comments from the Program Manager, Maneuver
  Additionally, Project Manager, Maneuver Ammunition Systems         Ammunition Systems’ are responsive. No further response
  noted on May 2013, DSE, Inc., announced the closure of its         is required.
  facilities and on July 3, 2013, announced the sale of its assets
  to their competitor, AMTEC Corp, Janesville, Wisconsin.
  Because of these events, Project Manager, Maneuver
  Ammunition Systems and the Army Contracting Command
  are working on the novation of the DSE contract.




ii │ DODIG-2013-122 (Project No. D2011-DT0TAD-0001)
                                        INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE
                                    ALEXANDRIA, VIRGINIA 22350-1500



MEMORANDUM FOR PROGRAM EXECUTIVE OFFICE AMMUNITION
		             PROJECT MANAGER, MANEUVER AMMUNITION SYSTEMS

SUBJECT: Assessment of the DSE 40mm Grenades (Report No. DODIG-2013-122)

We performed this assessment in response to U.S. Representative John Tierney’s letter dated
February 11, 2011, requesting that the DoD Office of the Inspector General (OIG) conduct an assessment of
the reliability and quality control procedures for 40mm grenades procured from DSE, Inc.

We assessed Project Manager, Maneuver Ammunition Systems operations, conducted pre-assessment of
DSE Systems, a subsidiary of DSE, Inc., reviewed the M550 fuze first article acceptance test and conducted
a full quality assurance assessment of DSE Systems using the Quality Management System standard
ISO 9001:2008. We also assessed the reliability and quality management system used in the manufacturing
of the M550 fuze.

We found DSE Systems had elements of an ISO 9001:2008 Quality Management System, however; our
assessment did identify 20 findings. The findings indicated DSE Systems needs to improve its approach
to the following quality assurance processes: control of nonconforming products, corrective action
and preventive action, verification of purchased products, and production process controls. However,
DSE Systems manufacturing processes include several inspection and validation points, which reduce the
risk of nonconforming material or product being delivered to the customer. Finally, we evaluated the
reliability of the M550 fuze produced by DSE Systems and found that the contract specifications and
required testing should ensure its safe operation.

The Army’s program office responsible for procuring grenades, Project Manager, Maneuver Ammunition
Systems, agreed with our findings and recommendations, and no further comments are required.
Project Manager, Maneuver Ammunition Systems noted that in May 2013, DSE Inc. announced the closure
of their production facilities and on July 3, 2013 the sale of its assets to AMTEC Corp. Project Manager,
Maneuver Ammunition Systems and the Army Contracting Command are working with both contractors on
the novation of the DSE, Inc. contract to name AMTEC Corp as the successor on the contract.

Project Manager, Maneuver Ammunition Systems needs to stay actively engaged with the Defense Contract
Management Agency to ensure that issues cited in this assessment are not transferred to AMTEC Corp.

We appreciate the courtesies extended to the staff. Please direct questions to Al Dopita at (703) 699-0220
(DSN 664 0220), alois.dopita@dodig.mil. If you desire, we will provide a formal briefing on the results.




	                                              Randolph R. Stone
	                                              Deputy Inspector General
	                                                Policy and Oversight
cc:
Under Secretary of Defense for Acquisition, Technology, and Logistics
Auditor General of the Army
                                                                                               DODIG-2013-122 │ iii
                  Contents
                  Introduction
                  Objectives_________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1

                  Assessment Process________________________________________________________________5
                  Assessment Results_________________________________________________________________7
                  Conclusion_______________________________________________________________________________ 12
                  Recommendations________________________________________________________________ 13
                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 15
                  Appendix B. Notice of Concern_______________________________________________________________ 16

                  Management Comments_____________________________________________________ 19
                  Acronyms and Abbreviations______________________________________________ 21




iv │ DODIG-2013-122
                                                                                                                           Introduction




Introduction
Objectives
Our assessment focused on the reliability and quality assurance control procedures
for 40mm grenades procured by DoD from DSE, Inc. Specifically, we assessed the
quality management systems employed by DSE Systems, LLC, and a division of DSE, Inc.,
for manufacturing the M550 fuze against ISO 9001:2008, “Quality Management
Systems-Requirements.”1


Background
On February 11, 2011, U.S. Representative John Tierney requested the DoD Office
of the Inspector General (OIG) conduct an investigation of the reliability and quality
control procedures for 40mm grenades procured from DSE, Inc., which produces about
40 percent of the U.S. Army’s 40mm grenades. The request was based on allegations that
a major manufacturer of grenades had a series of quality control problems. In the request,
Representative Tierney cited a former DSE Fuze subsidiary quality control manager’s
claim that the company had manufacturing problems and produced flawed fuzes for the
40mm grenades.

On February 16, 2011, the U.S. House of Representatives Committee on Oversight and
Government Reform requested that the Army provide information on the alleged
production defects and lack of quality control at DSE, Inc. The Army investigated these
allegations and found that the M550 escapement used in the M918 training round
shown in Figure 1 was nonconforming, and DSE failed to submit documentation of
the nonconformance.2 Although the required documentation was not submitted, a
subsequent evaluation of the nonconforming condition by the government engineering
organization determined that the condition would not affect the form, fit, function, or
safety of any M918 training rounds that contained the nonconforming components.

On June 6, 2011, we announced this assessment in response to Representative Tierney’s
request and completed the physical assessment of DSE Systems on February 28, 2013.
The quality assurance assessment of DSE Systems was delayed until February 2013


	1	
    ISO 9001:2008 “Quality Management Systems-Requirements,” is an international standard adopted when developing,
    implementing, and improving the effectiveness of quality management systems.
	2	
    A nonconformance is a departure from a specified requirement for any characteristic (Mil-Std-1916, “DoD Preferred
    Methods for Acceptance of Product”).




                                                                                                                        DODIG-2013-122 │ 1
Introduction




                 Figure 1. M918 Training Round
                 Courtesy of PM MAS

                 because DSE closed its original fuze production line at DSE Fuzing, Orlando, Florida, in
                 June 2011 and moved all fuze manufacturing to DSE Systems, Gaffney, South Carolina. We
                 elected to wait to assess DSE Systems until the First Article Acceptance Testing (FAAT)
                 and two production lots of fuzes were completed, so that we would be able to assess the
                 certified manufacturing line.


                 Contract Overview
                 The Army used a firm-fixed-price contract award to buy 40mm grenades and awarded
                 the contracts to two small businesses, AMTEC Corporation and DSE Inc., which have
                 60 percent and 40 percent of the 40mm grenade contract value, respectively.

                 The Army awarded DSE a 40mm grenade contract in April 2005, which ran through
                 2009, and an additional contract in February 2010, with options through 2014. The
                 contracts included the M918 training round, which uses the M550 escapement.
                 The M550 escapement is also an integral part of the M550 fuze, which is used in the
                 M433 tactical round shown in figure 2. Each contract requires DSE to produce 40mm
                 grenades in accordance with the government-controlled technical data packages that




2 │ DODIG-2013-122
                                                                                             Introduction




Figure 2. M433 Tactical Round
Courtesy of PM MAS

contain verification requirements. In addition, the contract also requires DSE to include
provisions for audits of suppliers to verify compliance with process controls and contract
quality assurance requirements.

On June 30, 2011, DSE closed its M550 fuze manufacturing line in Orlando, Florida, and
moved it to its DSE Systems facility in Gaffney, South Carolina. The 40mm grenade contract
requires that if a manufacturing line that produces an item in the technical data package
is either idle for 90 days or moved, the contractor must recertify the production line and
conduct a FAAT. DSE Systems completed their FAAT in December 2012. Subsequently, the
Project Manager, Maneuver Ammunition Systems (PM MAS) and the Army Contracting
Command approved production in February 2013.


Previous Audit Results
In May 2009, the Army conducted a comprehensive audit of the DSE Fuzing
manufacturing facility in Orlando, Florida. DSE acquired this facility from Kaman Dayron
in January 2008. The May 2009 audit found that DSE Fuzing needed to update its internal
documents, including procedures and forms; implement an internal audit system;




                                                                                         DODIG-2013-122 │ 3
Introduction



                 implement an effective Statistical Process Control (SPC) system; implement a preventive
                 and corrective action system; and establish an effective system for tracking the status of
                 critical characteristics3 with respect to defects.

                 In June 2009, the Army conducted a follow-up audit at DSE Fuzing to verify closure of
                 findings. The Army audit report noted that although progress had been made to close
                 several of the findings, an additional audit of the critical characteristic tracking and
                 handling process was required.

                 In May 2011, the Army conducted a final audit at DSE Fuzing and identified several
                 major findings. The findings identified an ineffective SPC system, inadequate control of
                 suppliers, inadequate control of nonconforming material, and a lack of internal audits.
                 The Army did not conduct a follow-up audit at this facility because DSE Fuzing closed on
                 June 30, 2011, and moved all production to DSE Systems in Gaffney, South Carolina. The
                 Army stated, “it is expected that the [findings] resulting from this audit will not be present
                 at future audits at DSE Systems, Gaffney.”

                 In August 2012, the Defense Contract Management Agency (DCMA) conducted a Quality
                 Management System (QMS) audit at DSE Systems, Gaffney, SC. The audit identified
                 several major findings across all of DSE Systems production lines. The findings included
                 receiving inspection record documents that contained several changes without a
                 justification for the change; no evidence of an approved SPC plan; SPC data that were
                 not being collected and properly analyzed; no internal audits were conducted for 2012;
                 and control of nonconforming material was inadequate. Based on the results of this OIG
                 assessment and the previous audits noted above, several important issues have not been
                 effectively mitigated.




                 	3	
                       A characteristic that judgment and experience indicate must be met to avoid hazardous or unsafe conditions for individuals
                       using, maintaining, or depending upon the product (Mil-Std-1916, “DoD Preferred Methods for Acceptance of Product”).




4 │ DODIG-2013-122
                                                                                   Assessment Process




Assessment Process
We conducted our assessment of the reliability and quality management systems used in
manufacturing the M550 fuze. Although the current contract requires DSE to maintain a
quality assurance system in compliance with ISO 9001:2000, we conducted the assessment
to ISO 9001:2008 because it is the latest version of the standard. We reviewed and
assessed program office policy and documentation, contractual requirements, and DSE,
Inc., policy and procedures. Because the manufacturing line was relocated, we conducted
the assessment in four parts.

        •	 We reviewed PM MAS operations on June 27, 2011.

        •	 We conducted a pre-assessment of DSE Systems on August 22, 2011.

        •	 We witnessed and reviewed the FAAT process on February 27, 2012.

        •	 We conducted the quality assurance assessment of the DSE Systems M550
           fuze manufacturing process on February 25 - 28, 2013.

We met with PM MAS to gain an overall understanding of the 40mm grenade program.
PM MAS, under the Program Executive Office Ammunition, equips soldiers, mounted
and dismounted, with all calibers of direct fire ammunition for the Army’s current
forces, Stryker forces, future forces, and other Services. PM MAS is the focal point for
acquisition-related activities as well as system development, hardware production,
and configuration management. We reviewed PM MAS operations to verify they were
conducting oversight of the 40mm grenade contract requirements relating to quality
assurance and performance verification.

We conducted a pre-assessment of DSE Systems to baseline its QMS and M550 fuze
manufacturing processes, procedures, and controls used to ensure product quality and
reliability. The team focused on the M550 fuze because of the Army’s April 2010 M550
inspection report and technical assessment referenced in the March  2011 briefing to
House Committee on Oversight and Government Reform, which found the M550
escapements used in the M918 training round contained nonconforming parts.
Furthermore, the M550 escapement is an integral part of the M550 fuze, which is used on
the M433 tactical round.

DSE Systems conducted its FAAT on February 27, 2012, to verify its M550 fuze production
line and gain Government approval for full-rate production. We witnessed and reviewed
the FAAT process, which included witnessing the PM MAS process for verifying the




                                                                                       DODIG-2013-122 │ 5
Assessment Process



                 unique M550 fuze part characteristics stipulated in the government-controlled technical
                 data package and contract specifications. We also verified manufacturing and testing
                 procedures for adequacy. Based on our FAAT observations, we issued a Notice of Concern
                 (Appendix B) to the PM MAS on March 9, 2012, citing documentation inconsistencies
                 among program office teams and DSE System noncompliance with ISO 9001:2008
                 clauses 7.5.1, “Control of Production and Service Provision,” and 7.6, “Control of Monitoring
                 and Measuring Equipment.” The corrective actions taken in response to the notice of
                 concern were verified during our final quality assurance assessment.

                 We delayed the final quality assurance assessment until the M550 fuze manufacturing
                 line successfully completed FAAT and received production approval from PM MAS. On
                 February   5, 2013, PM MAS granted DSE Systems approval to produce the M550 fuze.
                 We waited until DSE Systems produced and tested at least two lots, which contain
                 approximately 5,000 to 20,000 fuzes, of production fuzes before we conducted the
                 assessment to allow DSE Systems to collect fuze manufacturing and quality assurance data.

                 We conducted the final ISO 9001:2008 QMS assessment at DSE Systems during
                 February  25 -  28, 2013. The assessment focused on adherence to quality assurance
                 requirements as outlined in its contract by verifying DSE Systems’ compliance with
                 ISO 9001:2008 requirements through a review of its internal processes, procedures, and
                 records. In addition, we reviewed the Government oversight of DSE Systems production
                 process and quality assurance procedures and identified findings and then categorized
                 them to identify the systemic and overarching quality and reliability issues.




6 │ DODIG-2013-122
                                                                                       Assessment Results




Assessment Results
We assessed DSE Systems to the ISO 9001:2008 quality assurance standard and identified
20 findings.

We categorized the findings by ISO 9001:2008 management section to identify potential
areas of weakness in DSE Systems’ QMS. We identified 17 of the 20 findings in the Product
Realization and Measurement, Analysis, and Improvement sections as shown in Figure 3.



               Section 4.0
Quality Management System

             Section 5.0
Management Responsibility

               Section 6.0
     Resource Management

                 Section 7.0
         Product Realization

  Section 8.0 Measurement,
    Analysis & Improvement

                               0   1       2   3     4    5      6    7      8     9    10
                                                   Number of Findings

Figure 3. Findings by ISO 9001 Section
Based on our analysis of the finding and as depicted in Figure 3 we identified four areas of
concern requiring DSE Systems management attention. These areas are:

         •	 control of nonconforming products

         •	 corrective and presentative actions

         •	 verification of purchased product, and

         •	 production process controls.

In addition to the four areas of concern, we also assessed the safety and reliability of the
M550 Fuze and found that the contract specifications and imposed testing ensures its
safe operation.




                                                                                           DODIG-2013-122 │ 7
Assessment Results



                 Control of Nonconforming Products
                 DSE Systems needs to improve its processes for identifying, segregating, and analyzing
                 nonconforming products.

                 We identified instances where employees did not identify and segregate nonconforming
                 products in accordance with company procedures and the ISO standard. For example,
                 nonconforming products identified during the manufacturing process were segregated
                 using red bins, even though the procedures indicate that they should be identified with
                 a hold tag or reject tag. In the Quality Engineer’s office, four nonconforming items
                 did not contain the proper identification tag. The nonconforming product review and
                 analysis process has deficiencies. Furthermore, DSE Systems did not always provide
                 root cause analysis for product nonconformances, did not perform trend analysis for
                 similar nonconformances, and did not ensure the material characteristics code for critical
                 nonconformances were identified. Previous audits in 2009 and 2010 at DSE Fuzing and
                 the audit in 2012 at DSE Systems also identified similar weaknesses in the company’s
                 ability to segregate and control nonconforming material, which indicates an ongoing
                 systemic issue in this area.

                 The lack of adherence to documented processes for identifying, segregating, and
                 analyzing nonconforming material increases the risk of nonconforming material
                 entering or re-entering the manufacturing process flow and being delivered to the
                 customer. In this particular case, a discrepant M550 fuze could result in early arming of
                 the grenade, violating minimum standoff distance of 45 feet. However, required ballistic
                 testing at both the fuze level and the cartridge level minimize this risk. To date there
                 have been no verified early arming cartridges reported from the warfighter. In addition,
                 proper identification and analysis of nonconforming products is essential to support an
                 effective corrective and preventive action system.


                 Corrective and Preventive Actions
                 DSE Systems needs to improve its corrective and preventive action program.

                 DSE Systems has a corrective action program that was not fully implemented. DSE
                 Systems did not provide definitions for short and long-term corrective actions, did not
                 complete closeout of corrective action requests (CARs) within the required timeframe, or
                 perform any follow-up on the corrective action effectiveness. In addition, DSE Systems
                 did not define the roles and responsibilities of the Internal Quality Audit Corrective Action
                 Board. DSE Systems had an internal audit program, but the DSE Systems personnel were
                 not executing the defined internal audit schedule as planned and were not maintaining



8 │ DODIG-2013-122
                                                                                      Assessment Results



internal audit records. When determining the internal audit schedule, the company did
not consider criteria such as deteriorating quality or reliability of a product or system
elements and SPC data.

The preventive action process receives inputs directly from the corrective action
process and the internal audit and control of nonconforming product processes.
We determined that DSE Systems had not fully implemented a preventive action program
in accordance with its procedures. Deficiencies in DSE Systems’ preventive action system
included the following:

         •	 Information from internal audits, CARs, nonconformances, and corrective
            actions from production was not analyzed or tracked for trending of
            recurring failures;

         •	 Root cause analyses were not performed or used for the purposes of
            determining preventive actions; and

         •	 SPC information or other analyses were not used by the quality assurance
            personnel to implement a preventive action program.

The purpose of corrective and preventive action processes is to improve product quality
and reliability over time. DSE Systems’ corrective and preventive action processes need
improvement or they risk delivering nonconforming parts and materials to its customer.
Furthermore, previous audits from DSE Fuzing in 2009 and DSE Systems in 2012 cited
similar issues, such as no internal audits and a lack of a preventive and corrective action
system. This indicates DSE Systems has not been able to fully implement an effective
corrective and preventive action process and should immediately focus on improvement
in this area.


Verification of Purchased Product
DSE Systems needs to improve its purchasing process, especially in the area of
receiving inspection.

DSE Systems did not properly identify equipment used for inspection and did not
identify the sampling plan for supplier-purchased products. We noted several examples
where inspection records were missing the required information used to determine
product acceptability, and where DSE Systems did not receive SPC data from suppliers
in accordance with purchase order requirements. The receipt of all requested data, such
as SPC data, and its thorough inspection helps ensure that only products conforming to
requirements enter the manufacturing process flow.



                                                                                          DODIG-2013-122 │ 9
Assessment Results



                 In one instance, DSE Systems ordered and accepted parts from a supplier not on its
                 approved supplier list. Upon notification of the deficiency during the assessment,
                 DSE Systems initiated the supplier evaluation and approval process for this supplier.
                 DSE’s receiving process requires that a random sample be taken and tested. However,
                 the purpose of an approved supplier list is to show ongoing evidence of the quality of
                 a supplier’s product. In this case, evidence was not presented, increasing the risk of
                 nonconforming material being accepted and entering the manufacturing process flow.


                 Production Process Controls
                 The DSE Systems M550 fuze manufacturing process contains several quality checks and
                 verifications that should minimize the risk of using or delivering nonconforming products.

                 A majority of the product verifications are driven by critical,4 major,5 and minor6 product
                 characteristics defined by contract and military specifications with most verifications
                 performed using Government-validated acceptance inspection equipment. However,
                 DSE Systems needs to improve its practices in the areas of measurement, inspection, and
                 SPC data analysis.

                 DSE Systems collects SPC data on all contractually required critical and major product
                 characteristics in accordance to Mil-Std-1916, “DoD Preferred Methods for Acceptance
                 of Product,” as stated in the technical data package and the contract. DSE Systems must
                 ensure qualified personnel review SPC data in a timely manner and mitigate negative
                 manufacturing trends. DSE Systems was not receiving SPC data from some vendors in
                 accordance with purchase agreements, operators were not reviewing SPC data and data
                 charts as required, and DSE’s quality assurance organization was not staffed to operate an
                 effective SPC program. The purpose of an SPC system is to identify out-of-family trends
                 in dimensional or operational characteristics so production and quality issues can be
                 identified and immediately addressed. Based on previous audit and current assessment
                 evidence, DSE’s SPC program continues to have issues, requiring closer attention by
                 PM MAS and DCMA to ensure DSE’s SPC program operates effectively.




                 	4	
                      A characteristic that judgment and experience indicates must be met to avoid hazardous or unsafe conditions for
                      individuals using, maintaining, or depending upon the product (Mil-Std-1916, “DoD Preferred Methods for Acceptance
                      of Product”).
                 	5	
                      A characteristic, other than critical, that must be met to avoid failure or material reduction of usability of the unit of
                      product for its intended purpose (Mil-Std-1916, “DoD Preferred Methods for Acceptance of Product”).
                 	 6	
                      A characteristic, other than critical or major, whose departure from its specification requirement is not likely to reduce
                      materially the usability of the unit of product for its intended purpose or whose departure from established standards
                      has little bearing on the effective use or operation of the unit (Mil-Std-1916, “DoD Preferred Methods for Acceptance
                      of Product”).




10 │ DODIG-2013-122
                                                                                      Assessment Results



Reliability
The M918 and M433 rounds are considered by PM MAS to be safe and reliable based on a
review of test results and field failure data.

No injuries were reported during the 25 years of M918 and M433 rounds production.
DSE has delivered 7.9 million M918 rounds, which use the M550 escapement and no
incidents were reported during the consumption of 6.9 million of those rounds. DSE has
delivered 0.75 million M433 rounds, which use the M550 fuze, and no incidents were
reported during the consumption of 0.35 million of those rounds.

The contract requires DSE, Inc., to verify all safety critical characteristics that ensure
the safe and reliable operation of the M550 Fuze, which are listed in technical data
package and Mil-DTL-50869H, “Fuze, Point Initiating, Base Detonating (PIBD) – M550,
Less Spitback Assembly; Loading, Assembling, and Packaging.” The contractor
demonstrates verification of these characteristics by submitting to the government the
FAAT report, Critical Characteristic Control Plan, and Critical Plan of Action. DSE has
submitted these documents to PM MAS, who reviewed and accepted the FAAT report
and provided letters of conditional acceptance of the Critical Characteristic Control Plan
and Critical Plan of Action predicated on additional data associated with starting
production at the Gaffney, South Carolina facility. Based on the additional requirements
imposed by the conditional acceptance letters from PM MAS, DSE Systems should
complete the necessary verification of safety critical characteristics as required by
the contract.

Additionally, DSE Systems verifies functionality, safety, and reliability of the M550 fuze
by testing a sample of 50 fuzes from each lot. The testing is performed before any fuzes
are installed into M433 rounds. To test the functionality, DSE Systems mounts the fuzes
on test cartridges and shoots them at a soft target and then a hard target. The round
must pass through the soft target placed at 45 feet away from the gun without detonating
and then detonate on impact with the hard target placed at 100 feet away from the gun.
The entire lot fails and is rejected if one fuze detonates on the soft target. This test of
functionality reduces the risk of unsafe fuzes being placed on full-up rounds. At the
time of this assessment, the two M550 fuze lots of approximately 3,700 and 6,300 fuzes
produced by DSE Systems successfully passed functionality testing.




                                                                                         DODIG-2013-122 │ 11
Conclusion




                 Conclusion
                 DSE Systems has all of the elements of the ISO 9001:2008 Quality Management System.
                 It incorporated quality control and verification steps into its manufacturing processes,
                 which aid in preventing the delivery of nonconforming products.             Additionally,
                 DSE  Systems’ performance of lot acceptance testing and the verification of major and
                 critical characteristics, as required by the contract, facilitate process control and aid
                 confidence in the delivered product.

                 However, several of the findings identified in this assessment are similar to issues
                 identified in previous assessments conducted at DSE Fuzing. For instance, instituting
                 an effective root cause and corrective system remained an issue, as was the proper
                 segregation of nonconforming hardware to prevent comingling of hardware. Other
                 standard quality assurance approaches used to increase product reliability, such as
                 using SPC data and internal auditing to determine if operations are adhering to specified
                 procedures, remained deficient. These items were cited as areas for improvement in all
                 four quality audits assurance performed since 2009.

                 We did note improvement from assessment to assessment, but it is our position that
                 DSE Systems needs to resolve the previous and current findings identified, use preventive
                 and corrective action processes to continuously improve product reliability, and ensure
                 that all personnel adhere to approved processes. In addition, PM MAS and DCMA should
                 continue to take an active role in ensuring that DSE succeeds in meeting its quality
                 assurance and performance goals. PM MAS needs to continue participating in audits
                 and evaluating SPC data, so that DSE attains long-term corrective actions and attains the
                 desired product reliability.




12 │ DODIG-2013-122
                                                                                       Recommendations




Recommendations
We recommend that:

      1.	   Project   Manager,     Maneuver   Ammunition    Systems    ensure      rigorous
            compliance to ISO 9001 standards at DSE Systems and future 40mm
            grenade contractors and ensure that the findings identified within this
            report and past quality assurance audits are mitigated and resolved.

      2.	   Project Manager, Maneuver Ammunition Systems continue to apply the
            necessary resources, such as technical and quality assurance expertise to
            ensure that DSE  Systems and future 40mm grenade contractors adhere
            to the contractually required Quality Management Systems processes
            and implement preventive action process measures that promote
            product reliability.

      3.	   Defense Contract Management Agency increase its onsite performance
            of inspections and verifications until all the corrective actions have
            been implemented.


Project Manager, Maneuver Ammunition
Systems Comments
PM MAS agreed with the recommendations and findings. However, as a result of
management comments, we modified the report to clarify the FAAT requirements and
safety of the fuze.

PM MAS noted in its response that in May 2013, DSE announced the permanent layoff
of its production employees and on July 3, 2013, announced the sale of its assets to
their competitor, AMTEC Corp, Janesville, Wisconsin. As a result, PM MAS and the Army
Contracting Command are working on the novation of the DSE contract. However,
PM  MAS remains dedicated to ensuring that the 40mm grenade contractors, comply
with all the product technical requirements, quality requirements and the terms and
condition of their contracts to include compliance with ISO 9001 standards. Furthermore,
they will continue to actively engage with DCMA and others to ensure all necessary
resources are applied to ensure current and future 40mm grenade producers adhere to
all technical, contractual, and quality management system requirements.




                                                                                         DODIG-2013-122 │ 13
Recommendations



                 DoD IG Response
                 The DoD IG acknowledges the closure of DSE, Inc., and comments from the
                 Program Manager, Maneuver Ammunition Systems are responsive. No further response
                 is required.




14 │ DODIG-2013-122
                                                                                          Appendixes




Appendix A
Scope and Methodology
We conducted this technical assessment from June 2011 through March 2013 in
accordance with the Council of the Inspectors General on Integrity and Efficiency,
“Quality Standards for Inspection and Evaluation.” Those standards require that we
plan and perform the assessment to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our assessment objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our assessment objectives.


Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.




                                                                                     DODIG-2013-122 │ 15
Appendixes




                 Appendix B
                 Notice of Concern




16 │ DODIG-2013-122
                                  Appendixes



Notice of Concern (cont’d)




                             DODIG-2013-122 │ 17
Appendixes



                 Notice of Concern Response




18 │ DODIG-2013-122
                      Management Comments




Management Comments




                           DODIG-2013-122 │ 19
Management Comments



                 Management Comments (cont’d)




20 │ DODIG-2013-122
                                                      Acronyms and Abbreviations




Acronyms and Abbreviations
   CARs Corrective Action Requests
 DCMA Defense Contract Management Agency
   FAAT First Article Acceptance Test
    OIG Office of the Inspector General
PM MAS Project Manager, Maneuver Ammunition Systems
   QMS Quality Management System
    SPC Statistical Process Control




                                                                DODIG-2013-122 │ 21
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
